BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, here by certify that 1 unbound and
1 copy of the foregoing Reply Brief for Petitioners in
20-86, Charles Daniels, Director, et al. v. Ronald Ross,
were sent via Next Day Service to the U.S. Supreme
Court, and e-mail service to the following parties listed
below, this 20th day of October, 2020:
Jonathan Michael Kirshbaum
Emma Lauren Smith
Federal Public Defender's Office Las Vegas
411 E. Bonneville Avenue, Suite 250
Las Vegas, NV 89101
(702) 388-5112
J onathan_Kirshbaum@fd.org
Emma_Smith@fd.org

Counsel for Respondent
Aaron D. Ford
Heidi Parry Stern
Counsel of Record
Jeffrey M. Conner
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov

Counsel for Petitioners

I BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED I 8790 Governor's Hill Drive
(800) 890.5001

www.beckergallagher.com

Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
. Wash ington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 20, 2020.

Donna J. Wolf
~
Becker Gallagher Legal Fulilishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date :

CJ~k d--tJ 1 <:1 Z>o()

drl<- {J '

Notary Public
[seal]

h1«f!r

